CERTIFICATE OF COMPLIANCE WITH RULE 33.2
I, David Zugman, counsel for petitioner, certify that this document is prepared
in accordance with the requirements of Supreme Court Rule 33.2, and contains 2663
words, exclusive of the table of contents, table of authorities, signature lines, and
certificates of service and compliance, as counted by the word count program of Corel
Wordperfect.
I also certify that this brief complies with the typeface requirements because
the brief is prepared in a proportionally spaced typeface using 13-point Century 725
BT font.
I declare under penalty of perjury that the foregoing is true and correct.
Executed August 31, 2021 at San Diego, California.

s/David Zugman
By: David Zugman
Burcham & Zugman
402 West Broadway, Suite 1130
San Diego, CA 92101
(619) 699-5931
Counsel for Petitioner
Conoly Freddie Franklin III

-14-

